<html>
<title> - SIGAR REPORT: DOCUMENT DESTRUCTION AND MILLIONS OF DOLLARS UNACCOUNTED FOR AT THE DEPARTMENT OF DEFENSE, PART II</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 SIGAR REPORT: DOCUMENT DESTRUCTION AND MILLIONS OF DOLLARS UNACCOUNTED 
               FOR AT THE DEPARTMENT OF DEFENSE, PART II

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,

                HOMELAND DEFENSE AND FOREIGN OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 20, 2012

                               __________

                           Serial No. 112-181

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
76-263                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
DAN BURTON, Indiana                  ELIJAH E. CUMMINGS, Maryland, 
JOHN L. MICA, Florida                    Ranking Minority Member
TODD RUSSELL PLATTS, Pennsylvania    EDOLPHUS TOWNS, New York
MICHAEL R. TURNER, Ohio              CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 DENNIS J. KUCINICH, Ohio
CONNIE MACK, Florida                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
ANN MARIE BUERKLE, New York          GERALD E. CONNOLLY, Virginia
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
RAUL R. LABRADOR, Idaho              DANNY K. DAVIS, Illinois
PATRICK MEEHAN, Pennsylvania         BRUCE L. BRALEY, Iowa
SCOTT DesJARLAIS, Tennessee          PETER WELCH, Vermont
JOE WALSH, Illinois                  JOHN A. YARMUTH, Kentucky
TREY GOWDY, South Carolina           CHRISTOPHER S. MURPHY, Connecticut
DENNIS A. ROSS, Florida              JACKIE SPEIER, California
BLAKE FARENTHOLD, Texas
MIKE KELLY, Pennsylvania
VACANCY

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                     Robert Borden, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

    Subcommittee on National Security, Homeland Defense and Foreign 
                               Operations

                     JASON CHAFFETZ, Utah, Chairman
RAUL R. LABRADOR, Idaho, Vice        JOHN F. TIERNEY, Massachusetts, 
    Chairman                             Ranking Minority Member
DAN BURTON, Indiana                  BRUCE L. BRALEY, Iowa
JOHN L. MICA, Florida                PETER WELCH, Vermont
TODD RUSSELL PLATTS, Pennsylvania    JOHN A. YARMUTH, Kentucky
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
PAUL A. GOSAR, Arizona               MIKE QUIGLEY, Illinois
BLAKE FARENTHOLD, Texas


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 20, 2012...............................     1

                               WITNESSES

Mr. John F. Sopko, Special Inspector General for Afghanistan 
  Reconstruction
    Oral Statement...............................................     6
The Honorable Allen F. Estevez, Assistant Secretary for Logistics 
  and Materiel Readiness, U.S. Department of Defense
    Oral Statement...............................................     8
Mr. Donald L. ``Larry'' Sampler, Jr., Deputy Assistant to the 
  Administrator, Office of Afghanistan and Pakistan Affairs, U.S. 
  Agency for International Development
    Oral Statement...............................................    10

                                APPENDIX

Interim Report on Afghan National Army Petroleum, Oil, and 
  Lubricants (SIGAR 12-14).......................................    33
The Honorable Jason Chaffetz, A Member of Congress from the State 
  of Utah, Opening Statement.....................................    49
Department of Defense Not Adequately Prepared To Transfer 
  Responsibility for Fuel Management to the Afghan National Army, 
  Statement of Mr. John F. Sopko, Special Inspector General for 
  Afghanistan Reconstruction.....................................    51
Joint Statement of Mr. Alan F. Estevez, Assistant Secretary of 
  Defense for Logistics and Materiel Readiness and Lieutenant 
  General Brooks Bash, Director for Logistics Joint..............    63
Mr. Donald ``Larry'' Sampler, Senior Deputy Assistant to the 
  Administrator & Deputy Director of the Office of Afghanistan & 
  Pakistan Affairs at the United States Agency for International 
  Development, Testimony for the Record..........................    68


SIGAR REPORT: DOCUMENT DESTRUCTION AND MILLIONS OF DOLLARS UNACCOUNTED 
               FOR AT THE DEPARTMENT OF DEFENSE, PART II

                              ----------                              


                      Thursday, September 20, 2012

                  House of Representatives,
       Subcommittee on National Security, Homeland 
                   Defense, and Foreign Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 2:30 p.m., in 
Room 2247, Rayburn House Office Building, Hon. Jason Chaffetz 
[chairman of the subcommittee] presiding.
    Present: Representatives Chaffetz, Platts, Tierney, and 
Lynch.
    Staff Present: Thomas A. Alexander, Senior Counsel; Alexia 
Ardolina, Assistant Clerk; Brien A. Beattie, Professional Staff 
Member; Mitchell S. Kominsky, Counsel; Jaron Bourke, Minority 
Director of Administration; Devon Hill, Minority Staff 
Assistant; Peter Kenny, Minority Counsel; Leah Perry, Minority 
Chief Oversight Counsel; Cecelia Thomas, Minority Counsel; and 
Carlos Uriarte, Minority Counsel.
    Mr. Chaffetz. The committee will come to order.
    I would like to begin this hearing by stating the Oversight 
and Government Reform mission statement.
    We exist to secure two fundamental principles: First, 
Americans have a right to know that the money Washington takes 
from them is well-spent; and, second, Americans deserve an 
efficient, effective government that works for them. Our duty 
on the Oversight and Government Reform Committee is to protect 
these rights.
    Our solemn responsibility is to hold the government 
accountable to taxpayers because taxpayers have a right to know 
what they get from their government. We will work tirelessly, 
in partnership with citizen watchdogs, to deliver the facts to 
the American people and bring genuine reform to the Federal 
bureaucracy.
    This is the mission of the Oversight and Government Reform 
Committee.
    I appreciate everybody here. I appreciate your patience 
here as we had votes on the floor. And we will have votes in 
approximately an hour, hour and 15 minutes or so.
    I want to welcome everybody to this hearing, which is 
entitled, ``SIGAR Report: Document Destruction and Millions of 
Dollars Unaccounted for at the Department of Defense, Part 
II.''
    I would like to welcome Members from both sides, in 
particular Mr. Lynch, who has worked tirelessly on these types 
of issues.
    Today's proceedings continue the subcommittee's efforts to 
oversee billions of taxpayer dollars spent in support of 
military and civilian operations within Afghanistan. Last week, 
the Special Inspector General for Afghanistan Reconstruction, 
or the SIGAR, Mr. John Sopko, testified before this committee 
on the findings contained in an interim report entitled, quote, 
``Interim Report on Afghanistan National Army Petroleum, Oil, 
and Lubricants,'' otherwise known as POL.
    His report contains serious allegations of potential waste, 
fraud, and abuse and document destruction associated with PLO 
procurement. I want to thank Mr. Sopko for being here again 
today and for the work that he and his team do.
    Given this finding, we found it necessary to seek answers 
from the Department of Defense. We also believe it is necessary 
to talk about the broader issue of direct assistance to foreign 
governments, including Afghanistan. USAID has considerable 
experience in this area, and I look forward to hearing how they 
ensure accountability in other regions.
    From fiscal years 2007 to 2012, CSTC-A has channeled 
approximately $1.1 billion through the Afghan Security Forces 
Fund to purchase petroleum, oil, lubricants for the Afghan 
National Army. In fiscal year 2013, the U.S. Government will 
purchase approximately $343 million more in POL.
    According to Mr. Sopko, CSTC-A does not have accurate or 
supportable information on three key things: how much U.S. 
funds are needed for ANA fuel; where and how the fuel is 
actually used; and how much of the fuel has been lost or 
stolen. Those seem to be some very basic, simple questions that 
everybody should be able to see and have in order to make 
reasonable, rational decisions. Thus, to the extent in which 
ANA fuel is in stock, consumed, or lost at any given time 
remains an unknown. Mr. Sopko also testified that, quote, ``No 
single office within the U.S. or Afghan Government has the 
complete records on ANA fuel purchased, ordered, delivered, and 
consumed,'' end quote.
    There are allegations that the Defense Department may have 
shredded financial records for hundreds of millions of dollars 
in POL. And yet, at this time, they are seeking to increase the 
assistance by hundreds of millions of dollars. If accurate, 
this is totally unacceptable. I have been working closely with 
Mr. Tierney and perhaps will introduce legislation soon to 
redirect this effort.
    Despite the lack of records and justification for fuel 
purchases, the Department of Defense proposes increasing 
funding. From fiscal year 2014 to fiscal year 2018, it plans to 
provide $555 million worth of POL per year. The Department of 
Defense plans to give two-thirds of this funding directly to 
the Afghan Government starting on January 1, 2013, so that it 
can buy the petroleum, oil, and lubricants for itself--this 
from a government which I believe is one of the most corrupt 
governments on the face of the planet.
    It begs the question, why do we even bother sending it to 
Afghanistan. Why don't we just send it to Dubai and let them 
just put it in their own bank accounts? There are some serious 
questions.
    We are here to try to provide more oversight, and yet what 
I see the direction of the Department of Defense going in is 
less oversight, less accountability. And that is, again, why 
USAID is here. They, too, didn't seem to be moving in this 
direction. We can't get the basic information about what we are 
consuming and what is being used, and the administration keeps 
moving in a direction to send it directly to them. We can't 
even account for it; we think the Afghans are going to account 
for it? And we are going to increase their funding? That is why 
we are here today.
    Under the current plan, the Afghan Government will be 
responsible for overseeing the expenditure of roughly $2.8 
billion of our taxpayer dollars. There are virtually no 
assurances, however, that the Afghans will properly oversee 
this money. We simply cannot delegate the authority and 
oversight of billions of taxpayer dollars to the Afghan 
Government without reliable controls in place. Trust, but 
verify. I believe that, and we are not doing that in this 
instance.
    Afghanistan is not the only recipient of direct assistance, 
however. This administration has made it a priority to increase 
direct assistance to governments in developing countries all 
over the world. Under President Obama, the USAID has developed 
a new initiative called Forward. Under this program, the 
administration plans to double the amount of U.S. foreign aid 
budget it gives directly to foreign governments, NGOs, and 
businesses.
    Already, between fiscal year 2009 and 2010, the 
administration has more than tripled its awards of direct 
assistance to Afghanistan to $2 billion. And, overall, 
excluding Afghanistan and Pakistan, the administration goal is 
to give 30 percent of nearly $40 billion in foreign aid budget 
directly to foreign governments, NGOs, and businesses by 2015. 
This is a staggering figure.
    I would like to hear from USAID how it ensures 
accountability in other regions and whether lessons can be 
applied to the Department of Defense.
    We must also get a better handle of who is receiving the 
contracts. In a letter on Tuesday, Mr. Sopko listed 43 
contractors in Afghanistan with affiliations to the Haqqani 
Network, the Taliban, or al Qaeda. According to this letter, 
these entities have not been suspended or debarred by the U.S. 
Government. The fact that these firms with known affiliations 
to terrorist groups are omitted from the debarment list is 
simply outrageous. I want to know why the Defense Department 
has not acted on the SIGAR's recommendations in a timely 
manner. I hope today's discussions include solutions on how to 
prevent groups with terrorist ties from doing business with the 
United States.
    I want to thank all the witnesses for being here on short 
notice. I appreciate your patriotism, your commitment to the 
country.
    What I like to share with people is, what differentiates 
the United States of America from everybody else is we have 
these types of candid discussions, in the light of day, on 
television, so that everybody can see and hear the good, the 
bad, and the ugly, all with the same mutual goal of making it 
better. That is why we are here today. I am not here to just 
try to embarrass people. We are trying to make it better and 
challenge the notions that are potentially there on the table.
    So I appreciate these gentlemen who are here answering the 
questions from the panel.
    And I would like to recognize the distinguished ranking 
member, the gentleman from Massachusetts who has worked 
tirelessly. I appreciate the partnership we have in trying to 
put good government in place, and I would like to recognize Mr. 
Tierney for his opening statement.
    Mr. Tierney. I thank the chairman for that, and thank our 
witnesses for being here today.
    And, again, the SIGAR, thank you, Mr. Sopko, for your 
report last week and your testimony, as well. I am glad to see 
you back here again today.
    Mr. Chairman, other than to just take this opportunity to 
acknowledge and honor the loss of Ambassador Chris Stevens and 
the three other United States citizens and note that we have 
had our 51st death of NATO forces on the so-called blue-green 
situation, and we honor the sacrifice of them and their 
families and all of the people that are dedicated servants 
still serving, and to note that I think we have a joint 
interest here in making sure that our investments in 
development, while laudable, are threatened by the potential 
that they may exacerbate the situation as opposed to improve 
it, and that a lot of the oversight work has to be done to make 
sure that this program or any program like it works to our 
advantage and not to our disadvantage, I will ask that we just 
accept my remarks for the record and we can proceed.
    Mr. Chaffetz. Absolutely. Without objection, so ordered.
    Mr. Chaffetz. Does any other Member seek to make a comment 
or opening statement?
    Mr. Platts. Mr. Chairman, not any real statement, other 
than I am going to apologize to the witnesses. I am due in 
another meeting here and just wanted to thank the witnesses for 
their written testimony and for you holding this very important 
hearing.
    The issue of transparency and getting to the bottom of 
these issues is so important. I commend you and the ranking 
member for moving forward with the hearing. And I apologize, I 
will be running out of here shortly.
    Mr. Chaffetz. Understood. The flexibility, a lot is 
happening today, and the lateness in which we start. So I 
appreciate that.
    Would the gentleman from Massachusetts care to say 
anything?
    Mr. Lynch. I would, just a brief statement. Thank you, Mr. 
Chairman. Thank you for holding this hearing. I thank the 
ranking member, as well. I know you both worked on these issues 
extensively.
    I also want to thank the witnesses for coming before us and 
trying to help us with our work.
    This is an important issue for us going forward. The 
Inspector General has been--the Special Inspector General has 
been terrific on this issue.
    Mr. Sopko, you were nice enough to join us last week, where 
we in this committee had the opportunity to hear testimony from 
the Inspector General for Afghanistan Reconstruction regarding 
the current system for procuring petroleum, oil, and lubricants 
for the Afghan Security Forces.
    We discovered at that hearing that the process is 
completely dysfunctional and that the Combined Security 
Transition Command-Afghanistan is not yet in a position to 
ensure that any entity, Afghan National Army or otherwise, will 
be able to take over future procurement. This is particularly 
disturbing as the Afghan National Army is set to take control 
of the petroleum procurement in January 2013.
    Corruption and lack of transparency are endemic in 
Afghanistan. I have often said that corruption is to 
Afghanistan like wet is to water. And that corruption has 
proven to be a significant hurdle for U.S., allied, and Afghans 
to overcome as we transition out of Afghanistan.
    We should not be handing over such responsibilities and 
resources without being certain that the institutions in 
question are ready to ensure proper oversight and transparency. 
That is the mission of this subcommittee as well as the full 
committee and our responsibility to the American people.
    The witnesses we have brought here today will be able to 
shed additional light on the petroleum procurement matter and 
what is being done to remedy the deficiencies. They will also 
be able to share what improvements are being done to increase 
overall oversight of funds provided by the United States 
taxpayer.
    Now, look, if we don't have the oversight in place, this 
money will be stolen. This is billions of dollars of taxpayer 
money. We all know the situation in Afghanistan, and right now 
they are totally incapable. We have seen it. We have seen it 
from Kabul Bank right on down. We have seen it through the fuel 
supply contracts--terrible corruption.
    And if we proceed down this road where we just hand 
billions of dollars over, 30 percent or otherwise, to the 
Afghan Government without the proper controls there, this money 
is going to go out the door, this will be stolen. So it makes 
no sense--it makes no sense to take American taxpayer money and 
hand it over to people who are not going to spend it for its 
intended purpose.
    And I would like to hear from our witnesses today as to how 
they envision a way forward to ensure that the transition of 
Afghan control will be sustainable, if not successful.
    I would like to thank our witnesses for taking the time to 
come and testify before the subcommittee.
    Mr. Chairman, thank you for staying on this issue, 
especially with the short deadline we have in January. We will 
not be in session that much more before this transition to 
Afghan control commences. So we have little time and a lot of 
work to do.
    And I just hate to see us, you know, put good money at risk 
here, in any circumstances, but especially right now with the 
economy and the finances of the United States being what they 
are.
    I yield back.
    Mr. Chaffetz. I thank the gentleman.
    Members may have 7 days to submit opening statements for 
the record.
    And we will now recognize our panel.
    Mr. John Sopko is the Special Inspector General for Afghan 
Reconstruction, also known as the SIGAR.
    The Honorable Allen Estevez is the Assistant Secretary for 
Logistics and Materiel Readiness at the Department of Defense.
    Lieutenant General Brooks Bash is the Director for 
Logistics with the Joint Staff at the Department of Defense.
    And Mr. Larry Sampler is the Principal Deputy Assistant to 
the Administrator and Deputy Director of the Office of Afghan 
and Pakistan Affairs at the U.S. Agency for International 
Development.
    That is quite the title. It is a long one. It just rolls 
off the tongue.
    Nevertheless, we are glad that you are all here.
    Pursuant to committee rules, all witnesses need to be sworn 
in before they testify. If you would please rise and raise your 
right hands.
    Do you solemnly swear or affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth?
    Thank you. You may be seated.
    Let the record reflect that all witnesses answered in the 
affirmative.
    In order to allow time for discussion, we would appreciate 
it if you would limit your testimony to 5 minutes, but we will 
be fairly generous with that if you want to continue with a 
thought.
    And we will now recognize Mr. Sopko for 5 minutes.

                       WITNESS STATEMENTS

                   STATEMENT OF JOHN F. SOPKO

    Mr. Sopko. Thank you.
    Mr. Chairman, Ranking Member Tierney, and members of the 
subcommittee, last week I testified before this subcommittee 
that SIGAR had serious concerns about how CSTC-A has managed 
and accounted for the fuel provided to the Afghan Army. Despite 
these problems, CSTC-A still plans to increase annual funding 
for the Afghan Army fuel by $212 million per year and is 
pushing forward with the transfer of fuel responsibilities and 
funding to the Afghan Army.
    We believe there is no basis for either decision, and I 
continue to surge CSTC-A to halt its plan to increase fuel 
funding until it develops a better process for determining fuel 
needs, establish a comprehensive action plan to improve fuel 
accountability, and delay transferring fuel responsibilities 
and funding to the Afghan Army until the problems we have 
identified are fixed.
    Now let me briefly update you on the destruction-of-records 
issue.
    First of all, SIGAR's investigations have identified and 
begun interviewing individuals located in the United States, 
Afghanistan, United Kingdom, and Belgium who were involved in 
this matter. We have confirmed that shredding did indeed take 
place and have identified two Air Force officers who admitted 
to destroying documents covering the time periods of February 
2010 to February 2011.
    According to these officers, they obtained supervisory 
approval to shred the documents because they did not have 
adequate storage space. They also claimed that they saved them 
in an electronic format. Our investigators are now working to 
locate those electronic records to review to see if they are 
actually the records in question. These are the records, of 
course, that we requested from--in February of this year.
    In addition, just this Tuesday, CSTC-A provided our 
auditors in Kabul with a CD which they claim contains 97 
percent of the documents we had requested for the time period 
of March 2011 to March 2012. As you can recall from my 
testimony last week, CSTC-A had promised our auditors that they 
had complete records for the time period of March 2011 to March 
2012. However, when they turned the records over to us and we 
did a sample, half of the documents were missing. Nevertheless, 
our auditors are now reviewing this new disc to ascertain 
whether it contains complete and accurate copies of the records 
we requested.
    Now, regarding the bulk of the records, those prior to 
February of 2010, we still do not know what happened to them. 
CSTC-A tells us that--tells our auditors in Kabul that they 
have located additional hard copies of the records, including 
some prior to February 2010, which we intend to examine.
    Let me just say at this point, CSTC-A's handling of its 
records is deeply troubling and, to us, raises questions about 
their ability to perform this serious function. It appears it 
has to take two congressional hearings, 6 months of IG 
requests, an interim audit report, a management alert letter, 
and my personal meeting with every senior military official in 
Afghanistan before CSTC-A deigns to seriously take our request 
for records as something they should respond to. We find that 
very troubling.
    Now, let us also update you on other developments since our 
last testimony last week.
    CSTC-A informed us of changes to their plans to transfer 
responsibilities to the Afghan Government. Subsequent to our 
testimony, CSTC-A now says they are going to revise the amount 
of funding it plans to provide directly to the Afghan 
Government from two-thirds of total funding to one-third.
    The time frame for transferring that fuel has also changed. 
It appears in a meeting, again subsequent to our testimony, 
that the Afghan Ministry of Defense has said they can't handle 
this new mission until March of 2013. Although we think this is 
a good move, to delay, we are surprised that apparently CSTC-A 
never talked to the Afghan ministry about this important 
function until subsequent to the hearing.
    These developments indicate that CSTC-A is perhaps 
approaching the transition to Afghan-run logistics more 
cautiously than before. Unfortunately, we know from our audit 
work and the work of others, including the Army Audit Agency, 
that CSTC-A has struggled with direct assistance in the past.
    As I mentioned last week, the Army Audit Agency reported in 
February 2012 that CSTC-A's standard operating procedure for 
making direct contributions to the Afghan National Security 
Forces did not provide a solid quality-control process. SIGAR 
itself reported in 2011 that CSTC-A's efforts to help the 
Afghan Ministry of Interior develop and implement a personnel 
management system to account for the Afghan National Police 
workforce and payroll was unsuccessful.
    Providing direct assistance to the Afghan Government is a 
critical part of handling responsibility for the Afghan 
reconstruction--excuse me, for the reconstruction effort over 
to the Afghans. But moving forward with direct contributions in 
the face of the serious problems that CSTC-A itself has 
encountered in its fuel programs reconfirms our belief that 
transferring funding responsibility in January is doubling down 
on a very risky bet.
    Thank you very much, Mr. Chairman and Ranking Member. I am 
open to any questions.
    Mr. Chaffetz. Thank you.
    We will now recognize the Honorable Mr. Estevez.

             STATEMENT OF THE HON. ALLEN F. ESTEVEZ

    Mr. Estevez. Thank you.
    Chairman Chaffetz, Ranking Member Tierney, distinguished 
members of the committee, thank you for the opportunity to 
appear before you to review the findings of the Special 
Inspector General for Afghanistan Reconstruction's interim 
report on the subject of Afghan National Army petroleum, oil, 
and lubricants.
    I would like to note that Lieutenant General Bash and I 
have submitted a joint statement for the record.
    I would also like to note that we appreciate the work of 
the Special Inspector General and that across the Department of 
Defense, to include in our deployed forces in Afghanistan, we 
are committed to working with the Special Inspector General to 
strengthen our processes in Afghanistan and to protect the 
taxpayers' dollars.
    Before addressing the issues raised by the interim report, 
it is important that we put our actions with regard to Afghan 
forces in context. It is critically important that we build 
Afghan force capability and capacity. This is the key to a 
stable, secure Afghanistan, an Afghanistan that is not a safe 
haven for extremists like al Qaeda that threaten this Nation.
    As part of the process to build Afghan military capability, 
we must also build Afghan force sustainment capabilities. 
Developing the ability to provide petroleum, oil, and 
lubricants, or ``POL'' in the military vernacular, is a 
critical part of that process.
    I would like it address the Special Inspector General's 
concerns with the Combined Security Transition Command-
Afghanistan's ability to fully account for POL provided to 
Afghan forces and the statements that officials shredded all 
Afghan fuel-related financial records from October of 2006 to 
February of 2011.
    And I will note that I just heard new information regarding 
that. However, I will stand by our statement that, to the best 
of our knowledge, no documents have been shredded, and records 
have been appropriately maintained. And I will say that 
electronic copies are valid records, so if a record was 
shredded, there is a valid electronic copy. That is to the best 
of our knowledge today.
    We will continue to provide the Special Inspector General 
with all documents relevant to this audit as we accomplish our 
ongoing mission in theater. To date, we have collected 97 
percent of the documents requested by the Special Inspector 
General. These documents include scanned copies of delivery 
tickets, invoices, and acceptance forms dating back to 2006.
    Ongoing logistics training for the Afghan forces includes 
developing the proper procedures for fuel ordering and receipt 
and the verification of the quantity and quality of fuel 
delivered. Our current process requires Afghan Security Force 
units to submit the appropriate requisition and consumption 
forms, or fuel orders are refused. Afghan Security Force 
personnel, working under the guidance of their coalition 
advisers, process fuel order documents by verifying the 
quantity of fuel authorized and comparing it with fuel 
requested to ensure units do not exceed their fuel allocations. 
The quantity and quality of fuel delivered to Afghan Security 
Force sites is verified through the reconciliation of 
appropriate forms.
    The NATO training mission has refined its method for 
estimating fuel funding levels for fiscal years 2014 to 2018. 
They used 1 year of consumption data, from August 2011 to July 
2012, to establish an annual requirements baseline. From that 
baseline, using simple trend analysis and taking into account 
expected operational tempo increases, planned equipment 
fieldings, and seasonal weather factors, they developed future-
year fuel requirements.
    To improve the accountability of supplies, the NATO 
training mission issued a memorandum in April 2011, prior to 
the audit, to the Afghan Ministry of Defense noting that it 
would apportion fuel based only on vehicles that were properly 
accounted for by the ministry and coalition forces.
    The NATO training mission also issued a fragmentary order 
in May 2012 directing coalition personnel at Afghan Security 
Force sites to report fuel storage capacity at all 46 Afghan 
force fixed-location fuel storage sites. This data enables the 
NATO training mission to compare quantity of fuel requested 
with capacity of potential storage in either fixed storage fuel 
tanks or mobile fuel transportation assets.
    To further improve the accountability of fuel and provide 
closer oversight, we are also consolidating the number of fuel 
delivery sites.
    In accordance with the overall campaign objectives, the 
NATO training mission is currently working with its Afghan 
partners in the Ministry of Defense to transition fuel 
management responsibility in a controlled, conditions-based 
manner--phased, conditions-based manner. Next year, the NATO 
training mission will transfer responsibility for only one-
third of the estimated 2013 fuel budget to the Afghan Security 
Force. The remaining fuel budget will remain under the direct 
control of the NATO training mission.
    To mitigate any financial risks, disbursements of funds for 
future Afghan Security Force fuel orders will occur quarterly 
and will be subject to the outcome of quarterly financial 
audits to ensure responsible use of funds.
    In addition to the specific actions mentioned above, the 
NATO training mission is instituting a number of initiatives to 
strengthen Afghan Security Force fuel and POL program.
    First, the training mission has formed an assistant-
minister-level bulk fuel transfer executive committee with 
members from the NATO training mission and key Afghan 
ministries.
    Second, the NATO training mission, with the assistance of 
the U.S. Central Command-Joint Theater Support Contracting 
Command, will advise Ministry of Defense acquisition personnel 
on the development of an enforceable contracting mechanism.
    Finally, the NATO training mission has requested the 
Defense Logistics Agency experts to review the NATO training 
mission procedures and provide feedback on how it can improve 
operations.
    Again, we want to thank the Special Inspector General for 
his work and this committee for its work. Ultimately, the aim 
of the collective effort is to ensure that Afghan Security 
Force POL operations are implemented properly while judiciously 
managing taxpayer resources. We continue to work hard to 
improve our oversight and management of this critical area.
    I look forward to your questions.
    Mr. Chaffetz. Thank you.
    And my understanding, again, as you stated, is that it was 
a joint statement with General Bash. So we will now recognize 
Mr. Sampler for 5 minutes.

         STATEMENT OF DONALD L. ``LARRY'' SAMPLER, JR.

    Mr. Sampler. Thank you very much, Mr. Chairman.
    Chairman Chaffetz, Ranking Member Tierney, and members of 
the subcommittee, thank you for the opportunity to testify 
today. My name is Larry Sampler, and I am the Senior Deputy 
Assistant to the Administrator and Deputy Director of the 
Office of Afghanistan and Pakistan Affairs at the United States 
Agency for International Development.
    Afghanistan is and has been a difficult place to do 
assistance work. USAID's development assistance for Afghanistan 
continues to remain a critical component of our core U.S. 
national security objective there, which is to disrupt, 
dismantle, and defeat al Qaeda and to prevent Afghanistan from 
ever again becoming a safe haven from which extremists can 
attack the United States and our allies.
    USAID's efforts are part of a whole-of-government, civil-
military effort to advance this strategic objective. Together, 
we are committed to promoting the development of a stable 
Afghanistan by partnering with the Afghan Government and the 
Afghan people to solidify a foundation of sustainable economic 
growth and effective, legitimate governance.
    I have been working on and off and in Afghanistan since 
2002 in both civilian and military capacities for the U.S. 
Government. I have worked as a representative of an 
international NGO, and I served for about 2 years as the chief 
of staff of the U.N. Assistance Mission in Afghanistan. So I do 
have personal experience with the challenges of implementing 
assistance programs in such a difficult environment, and I have 
seen the benefits of our assistance programs in Afghanistan.
    Under the Taliban, less than 9,000 boys and almost no girls 
had access to education. Today, more than 8 million children, 
more than a third of whom are girls, are enrolled in school. 
This is important because now there is a generation of young 
men and women graduating with critical thinking skills that 
will make them better citizens and more resilient in their 
opposition to malicious doctrines of the Taliban or others.
    In 2002, only 9 percent of Afghans had access to even the 
most basic health care. Today, that number is over 60 percent, 
and life expectancy at birth has risen by almost 20 years. 
Furthermore, maternal mortality and infant mortality have both 
dropped significantly.
    And, finally, our work in energy has helped triple the 
number of Afghans with access to reliable electricity, which 
has enabled the economic growth in the country. With USAID's 
support, Afghanistan's national power utility has increased its 
revenues by approximately 50 percent every year since 2009, 
reducing the needed Afghan Government subsidy to that 
organization from $170 million to approximately $30 million 
last year.
    Of course, our ultimate goal is to work ourselves out of a 
job by enabling Afghanistan to stand on its own two feet 
without direct foreign assistance. To that end, USAID has been 
working through select ministries in the Afghan Government 
since the previous administration. This work is commonly 
referred to as government-to-government or on-budget support 
assistance.
    I should note that on-budget assistance encompasses a range 
of mechanisms such as funds provided to and through the World 
Bank's Afghan Reconstruction Trust Fund, or the ARTF, as well 
as specific project assistance that we provide directly to and 
through ministries and agencies at the Government of 
Afghanistan.
    USAID has been constantly learning and reforming our 
operations in Afghanistan over the course of our engagement 
there. Oversight and accountability is an area where USAID's 
leadership has focused extensively throughout the agency and in 
particular with respect to Afghanistan.
    Protecting taxpayer resources is a vital concern to USAID, 
and we have established a variety of layered measures to ensure 
that our programs are cost-effective and are having the 
intended and the expected impacts. We are mindful that, as 
stewards of the U.S. Government taxpayer funds, that we serve 
as their representatives as we provide this assistance to the 
people of Afghanistan.
    USAID works to ensure that the ministries and agencies to 
whom we provide assistance are capable of implementing the 
desired programs, achieving the desired results, and doing so 
in a way that is transparent and fiscally responsible. USAID 
accomplishes this through a system of pre-award assessments, 
mitigating measures, financial controls, and rigorous 
monitoring and evaluation.
    As part of the financial controls, USAID maintains control 
of funds throughout the lifecycle of a project. We work with 
the Afghan Government to develop projects that are going to 
achieve specific outcomes, and we allow funds to be distributed 
only when certain benchmarks have been met. This ensures that 
the funds are accounted for and that we achieve the outcomes 
that are critical for our success.
    Another layer of oversight and accountability is provided 
by the multiple independent oversight bodies that review our 
programs. These, of course, include your own Government 
Accountability Office, the USAID Inspector General, and the 
Special Inspector General for Afghan Reconstruction. They 
complete numerous audits of our programs in Afghanistan every 
year that complement and reinforce our own efforts to ensure 
that taxpayer dollars are effectively used. And I should add, 
we welcome the oversight and the discipline that these reviews 
impose on our work. A number of the reviews, actually, have 
been requested by our staff.
    Finally, I know well that there have been significant 
sacrifices made by the American people in support of 
sustainability and stability in Afghanistan. We are under no 
illusions about the challenges that we face, but these 
challenges call for exercising diligence in how we operate as 
we carefully and deliberately transition to an Afghan-led 
process which meets our standards of achievement and of 
accountability.
    Our mission of defeating terrorists and denying them a safe 
haven remains critical to U.S. national security. The programs 
implemented by USAID are making important contributions toward 
that goal by helping Afghanistan stand on its own.
    I look forward to answering any questions you have, Mr. 
Chairman.
    Mr. Chaffetz. Thank you.
    I appreciate all of your statements.
    I will now recognize myself for 5 minutes.
    And, Mr. Estevez and General Bash, help me understand, who 
is ultimately responsible for the POL in Afghanistan? I mean, 
does that go through the two of you? Who at the Department of 
Defense is responsible for this?
    Mr. Estevez. If you are talking POL for U.S. forces, I 
would say I have ultimate responsibility in that regard. We are 
talking about for billing capacity for the Afghans, so it is a 
shared responsibility. We both have oversight of our 
contracting capability that is in Afghanistan that supports 
both our forces and supports CSTC-A and its mission.
    CSTC-A is operating in a training capacity, so, you know, 
their ultimate responsibility is through the command structure 
there.
    Mr. Chaffetz. This Special Inspector for Afghan 
Reconstruction, I think he is honest, sincere. He is trying to 
do the right thing. It takes months and months and months and 
months, as you said, a couple of congressional inquiries.
    With all due respect, I would rather not be sitting here 
with you today. I would much rather have you provide the 
documentation to him and be able to reconcile the books. He 
said there is no documents--that they found some of them now.
    Why is there such a challenge? Why does it take so long to 
get some what should be basic information?
    Mr. Estevez. First, let me say that we also do believe that 
the Special Inspector General is doing great work. It is very 
helpful work for us and for our mission in Afghanistan.
    Right now I think in CSTC-A there are 30-some audits going 
on. Of course, they are also engaged in the mission and 
training in Afghanistan, and I will let General Bash talk a 
little bit about that.
    So they are working to provide those records----
    Mr. Chaffetz. Have you seen them?
    Mr. Estevez. I have not.
    Mr. Chaffetz. Who has seen them?
    Mr. Estevez. The folks in Afghanistan that are pulling them 
and the folks around----
    Mr. Chaffetz. When will they have them?
    Mr. Estevez. They provided, as Mr. Sopko said, a disc. They 
are going through that disc to make sure they are giving them 
the right documents. A lot of this is electronic backup 
records.
    They did not know, at least to our knowledge again, until 
September 5th that there was an allegation of shredding and 
that documents were not available. And they are working very 
hard to provide those documents. We expect them to do so.
    Mr. Chaffetz. They were going to take roughly--and I am 
rounding here--a $350 million line item and bring it up to $555 
million. What gave you the confidence that that was an accurate 
number? Who signed off on that?
    General Bash. Well, Mr. Chairman, ultimately, you know, the 
commander at CSTC-A is responsible for the estimation and the 
building of the Afghan Army.
    Having, myself, spent a year in Iraq and having numerous 
visits to Afghanistan, as I know you have, the environment is 
challenging to help them build their institutional capacity, 
which is really what the core issue here is, trying to make an 
assessment of when they can start handling this and the 
training of advisers. And because of the way the mission has 
developed, they focused on the fighting forces first, and then 
now they are starting to get to the enablers, which includes 
logistics. So it brings us to the point of how we have 
confidence of how much fuel they actually need.
    And I would say that, since this special inspection started 
in March, in April, and the initial report was provided in May, 
which was the preliminary issues of concern provided to the 
commander at the time, our review with the commanders there 
have shown that, of at that time the six issues, they have made 
considerable progress. And I am prepared to share some of those 
details.
    But I think that there have been challenges--just the fact 
that the Expeditionary Sustainment Command only stood up 9 
months ago. Because when they recognized that they wanted to 
start building a logistics capacity for the Afghan Army, they 
said, you know, this is really hard stuff, we need to have the 
pros from Dover come out, which is the SC, which has been there 
for 9 months now.
    So, since that time, since 9 months ago, they have made 
considerable progress, and that is in parallel with Mr. Sopko's 
investigation. And I think they have been working with that 
team. In fact, there has been a SIGAR team member there 
consistently. And they were meeting weekly, at least initially. 
And I know there are team members still there. So I think they 
are working very closely together.
    Admittedly, there is frustration that it takes time to find 
the records, I think because of the scale. When we talk about 
the----
    Mr. Chaffetz. But, General, we are talking about increasing 
funding by $200 million, just this one line item, $200 million 
annually. The SIGAR is saying, there is no basis for this; we 
don't see any accounting that would justify this in any way, 
shape, or form. You two gentlemen are saying, yes, there is. 
Where is it? I think that is a fair and reasonable question to 
ask.
    And if there has been progress, please do that. I am past 
my time, but feel free to share those answers. And then we will 
recognize the gentleman from Massachusetts.
    Mr. Estevez. Let me just address the growth of the Afghan 
Army, the Afghan forces, so it is Afghan Army, police, border 
police--you know, the whole group. So that has expanded 
significantly year by year by year.
    In addition, we are providing substantial pieces of 
equipment--armored Humvees, pickup trucks, armored pickup 
trucks and the like--that all consume fuel. We are providing an 
air force capability to the Afghans--I am saying us and our 
coalition partners--in doing this.
    And as we expand sites, that, of course, also expands the 
requirement for fuel at those sites and for using that 
equipment. And the Afghan forces are taking more and more of 
the responsibility for engaging in combat. So they are out 
there using that fuel, consuming it.
    Mr. Chaffetz. How much of the fuel are they paying for, and 
how much of the fuel are we paying for?
    Mr. Estevez. I believe right now we are probably funding 
their fuel requirement. I would have to get you----
    Mr. Chaffetz. A hundred percent?
    Mr. Estevez. I really need to get you that for the record, 
sir, but I believe right now that we are probably fully funding 
their fuel requirement.
    Mr. Chaffetz. General, you said there were some other 
developments. I just wanted to give you an opportunity to 
expand that thought.
    General Bash. Thank you, Mr. Chairman, and I will try to be 
brief here.
    But in May, when the SIGAR provided the preliminary issues 
of concern to the command, there were six primary issues. And I 
will just briefly cover those, and if you want more, we can 
provide it.
    But, at the time, they said there needed to be a complete 
inventory of storage capacity, and also perform an assessment 
of short-lived consumption needs. Since that time, NTM has 
actually reduced the number of sites from 191 delivery sites--
down to 191 from almost 800. And they are going to 68. So the 
scale of the number of sites for delivery has shrunk 
significantly, which makes it a lot easier.
    They have issued a direction to collect data on fuel 
storage capacity. And today they do know how much capacity each 
of these sites, 46 sites have, and they know the million-of-
liters capacity. So that gives them an idea of, when they push 
fuel out, you know, how much they can actually accept.
    They have also refined the processes for determining 
consumption. They are just beginning this process, and so we 
don't have any success--you know, evidence that I have at this 
point. But they are using NATO standard fuel consumption 
formulas for vehicles. They are also using NATO operational 
planning factors that are accepted.
    So for the first issue, I feel confident that they are 
making progress. Perhaps still a ways to go there, but I think 
they have a process in place.
    The second issue talks about, they should establish a 
contract vehicle that includes more stringent provisions 
regarding fuel quality, quantity, and contractor performance. 
They now have a new four-step process. I won't go into details 
on that, but it is a new process. Based on this process, in 
August and July they had three cases of invoices that were 
rejected because the Afghans weren't following that particular 
process. So we do have evidence that that is beginning to work.
    And, finally, they are looking at coming up with an 
indefinite delivery contract to replace the current blanket 
purchase agreement, which was one of the suggestions, I think, 
that the SIGAR made at the time. That has not been done yet, 
but they are moving forward in that regard.
    On the third issue, as far as ordering and purchasing, they 
are requiring that CSTC-A account for all fuel orders. And 
today they are doing 100 percent reconciliation of those fuel 
orders, which we have confirmed with the theater.
    On the fourth one, which was with regard to documentation, 
again, this comes back to the new four-step process, where they 
have to get the fuel orders, which are the Form 14s that the 
Afghans use. That goes all the way through the reconciliation, 
which is the Form 32 at the end of the process. And they are 
trying to put maturity into the trainers and advisers that are 
advising the Afghans, that overwatch, trying to help them 
understand how to do that process with integrity.
    And the final two, the last issue, complete info on any POL 
purchases not available, the suggestion was to require them to 
perform monthly reconciliations, which I already mentioned that 
they are doing 100 percent today now, which wasn't necessarily 
the case when SIGAR brought this to their attention in May.
    And, finally, a suggestion to revise the Afghan Ministry of 
Defense Decree 4.6 to establish minimum proficiency 
requirements for the Afghans, that has not been completed yet. 
It is in progress. Obviously, this is one that the Afghans have 
to change their policy direction. The advisers are working with 
the Afghans right now to help them understand what changes need 
to be made. And hopefully in the future the Afghans will make 
that change so that what the advisers are trying to teach them, 
they have overarching guidance to follow.
    Thank you.
    Mr. Chaffetz. Thank you.
    I now recognize the gentleman from Massachusetts, Mr. 
Tierney, for 5 minutes.
    Mr. Tierney. Thank you, Mr. Chairman. For the rest of the 
afternoon, right?
    Mr. Chaffetz. For such time as he may consume, yes.
    Mr. Tierney. So, Mr. Sopko, what do you say to this?
    Mr. Sopko. A couple things.
    First of all, any of the efforts that the General mentioned 
to improve oversight and accountability we fully support. The 
problem is where the rubber meets the road. My auditors--and 
you have to remember, they were reviewing CSTC-A's response as 
late as August and September--they found no evidence of actual 
consumption data reports being used to estimate fuel 
requirements.
    Now, that is a key. And that is the problem I think we are 
seeing with CSTC-A. CSTC-A is using purchase data, not 
consumption data. We know what we purchased. We know what we 
paid for. The question is, do we know what the Afghans got, and 
do they need it? And we are not seeing consumption data.
    Now, Mr. Tierney, let me go back to the question that the 
chairman asked about the records. It is not just that they 
couldn't find the records for us and our audit was delayed 6 
months and that we had to narrow the scope from 4 years to 1 
year. What it really shows is they didn't have access to the 
records that they are now claiming they have access to, that 
they are using on a regular basis to determine if the Afghans 
are stealing the fuel.
    And what we would posit is that the total confusion of 
where the records were--we asked a simple question, to give us 
the records you are using to oversee the Afghans' usage. They 
couldn't find them for 6 months.
    We are really concerned. And I don't know how else we could 
express it other than to say: Do not proceed with cutting a 
blank check in January until you are sure you have a program in 
place that you, CSTC-A, is using.
    We have had problems with CSTC-A and CSTC-A records in the 
past. I mentioned and alluded to it in my opening statement and 
my written statement. In January of this year, we had to delay 
an audit on the number of vehicles that CSTC-A was using and 
had purchased for the Afghan military by 4 months because CSTC-
A didn't have an accounting of how many vehicles they were 
actually fueling. We later found out, and we saved over $5 
million in fuel, because it turned out CSTC-A was giving fuel 
to the Afghans for vehicles that had been destroyed.
    My auditors tell me, to this date, CSTC-A is still paying 
for fuel to fuel trailers, to fuel nonfunctional vehicles, and 
nonexisting vehicles.
    So, Mr. Tierney, my response is, I will use President 
Reagan's terminology, and I think the chairman did: Trust, but 
verify.
    Mr. Tierney. Thank you.
    So, General, I am concerned that we have this estimate for 
$200 million additional dollars a year at a time when your 
people couldn't access or weren't accessing the records. So, 
you know, without that kind of consumption information as to 
what was being used, I am a little curious as to how they got 
this estimate that they were going to need $200 million more 
next year.
    General Bash. First, I would say that I think the challenge 
that CSTC-A has is, there is a difference between the detailed 
end records, which are the consumption data and the forms that 
the Afghans do, and the trend analysis that they are doing from 
a macro perspective of what they are using. Certainly----
    Mr. Tierney. Could you explain that to me? You think that, 
to make a trend analogy, you don't need to have a good core 
base of information, of data?
    General Bash. The individual transaction, so it is more--I 
am making a distinction between the retail and the wholesale 
level. You know, so if you have, you know, hundreds of bases 
out there and thousands and thousands of vehicles and 
generators, what goes into each individual tank and what is 
used is a huge challenge. And----
    Mr. Tierney. Well, less so if you have the records 
indicating it. You just add them up.
    General Bash. Right. So, at the supply level, that is where 
they are doing the trend analysis to understand what the FOBs 
are using. And they are using a trend analysis, as I previously 
mentioned.
    As far as the increases----
    Mr. Tierney. You know, can I go back? Maybe I am obtuse 
here or something like that. I don't think you have answered my 
question, but you can maybe bear with me and try again so even 
I get it on that.
    I would think you need to know how many storage tanks 
exist, how many vehicles, and what capacity per vehicle there 
are in order for you to get a feel for what is needed 
collectively and base by base before you can make any trend 
analysis going forward. You have to know where you start in 
order to trend forward. Is that not making sense?
    General Bash. You are absolutely right, sir. And, in fact, 
when this SIGAR started, that information was not readily 
available, and today it is based on----
    Mr. Tierney. But it appears not to have been available when 
the trend analysis was made and the projection for $200 million 
additional money was made.
    General Bash. Unfortunately, I can't talk about the timing. 
I mean, they have been making considerable progress since----
    Mr. Tierney. Well, let me say it this way, because the 
Inspector General knew that they were asking for $200 million 
more when the documents were still not found. So now the 
documents were subsequently found. I think it stands to reason 
that they didn't use those documents to establish their 
baseline on which the trend was then set.
    Mr. Estevez. Let me try to answer you, Congressman Tierney.
    Mr. Tierney. Before you do that, Mr. Sopko, am I off base 
here? Does that sound reasonable to you?
    Mr. Sopko. You are absolutely correct. And that is our 
concern. And I am happy to give more detail because we were 
provided--CSTC-A provided their spreadsheet that they used, and 
it didn't include consumption data.
    So, you know, my auditors on the ground have been doing 
this for 9 months, and what they are saying is they are not 
using consumption data. They are using purchase data.
    Mr. Tierney. Thank you.
    Now, Mr. Estevez, if you care.
    Mr. Estevez. So what they have done is they have looked at 
the last year, they have used NATO consumption standards 
against the type of vehicles that the Afghans have, and that is 
vehicles ranging from, again, armored-type pickups to armored 
Humvees to helicopters, aircraft, generators, et cetera. So 
they have a year's worth of data. They used NATO consumption 
trends against that.
    They look at what the expected operational tempo is, 
because, obviously, if you have a vehicle and it is not being 
used, then there is no consumption. If it is being used X 
amount, there is X amount. If I am going to go out on patrol 
more because we are pulling back and we are expecting them to 
take the lead, that gives you another calculation. All that is 
into the calculation on how much fuel we need to buy for the 
Afghans.
    And the growth of the force, so we are fielding new 
vehicles into that mix. All that went into the trend analysis 
to calculate how much budget, as well as the calculation of 
what it is going to cost. Obviously, price of fuel fluctuates.
    Mr. Tierney. What of the trailers and things like that that 
were in that calculated number, you know, things that don't 
move and don't use energy that were somehow calculated in that 
base?
    General Bash. Sir, the best that we can figure on that one 
is that--and in talking to the commanders out there, is that 
today they have done a reconciliation with the Afghan books, if 
you will, and they do not provide fuel for vehicles that don't 
require fuel. There are trailers that do have pumps and engines 
on them to, you know, pump water and that sort of thing that 
perhaps are on the records that they get an allotment for fuel 
based on the NATO standards.
    But the commander has told us that, if that was happening 
previously, it is not happening today, because they have gone 
through and they now know exactly how many vehicles are on the 
Afghan records and they have oversight into--and, of course, 
that changes all the time based on losses and whatnot.
    Mr. Tierney. Mr. Sopko, are you satisfied that the 1-year 
records that are said to have been used were accurate for that 
1 year? And do you think that that is a complete enough basis 
on which to make projections?
    Mr. Sopko. No, we are not.
    Mr. Tierney. Why?
    Mr. Sopko. And, again, let me--maybe the best way to do 
this is look at the--our vehicle work showed that at least 
1,600 Afghan military vehicles that are not operational are 
still getting fuel.
    And I would like to also refer to an audit report that I 
mentioned, January 12, 2012, and just read from the findings. 
And it said--and, again, this is the one where CSTC-A had to 
ask us to delay doing our work, doing our field work, because 
CSTC-A reported it could not readily provide the documentation 
required to address our questions and was in the process of 
conducting a nationwide field inventory.
    After they did that inventory and allowed us in, they said, 
the U.S. was providing fuel for destroyed vehicles. As a 
result, CSTC-A saved over $370,000, and if you estimated it--
and 200,000 liters. And if you estimated, it would amount to 
over $5 million in savings.
    We are not comfortable with the number they are giving, 
based upon our prior work there. We don't feel they know what 
they are buying and what is being consumed.
    And the simple answer is, do you remember the chart I 
showed you about how the system was supposed to work? We put it 
up. There is a form called a MOD, Ministry of Defense, that is 
a form, it is a very good form, that the Afghans are supposed 
to fill out which talks about monthly consumption report. As of 
last week, when we got a report from CSTC-A in the field, they 
are saying they are still collecting those consumption reports 
and they are reaching out to the Afghans to try to find them.
    So if they are right now trying to find the consumption 
reports, how can they justify their budget, which was 
submitted, I think, a few months ago?
    Mr. Tierney. Do you care to take a shot at that one, 
Lieutenant General?
    Mr. Estevez. How about if I try to take a shot at that? A 
couple things----
    Mr. Tierney. I am sure the General is happy with that.
    Mr. Estevez. We work together.
    I think, you know, as far as the vehicles, you know, we do 
not dispute that we had problems with this in the past. We 
think we are much better today----
    Mr. Tierney. I guess the key is--I hope you don't mind a 
conversation.
    Mr. Estevez. Certainly, sir.
    Mr. Tierney. The key seems to be, you had a problem at the 
time that you were making your estimates and your projections. 
That is what--you know, I don't mind if you had a problem in 
the past. But if you had a problem at the time you were then 
finding some reason to make projections and trend analysis on 
it, that is what I have a problem with. They can't be very 
trustworthy if they are not set on solid ground.
    Mr. Estevez. The trend analysis is done in the July-August 
time frame, so I believe we are okay there. But I would like 
to----
    Mr. Tierney. Well, not according to Mr. Sopko. You are 
still getting information in August and September.
    Mr. Estevez. May I suggest on how we did our trend 
analysis--and his auditors may have already looked at this, but 
I believe that we need to get CSTC-A and his auditors together 
again to walk through that process and hopefully find a way 
forward on that. We are satisfying the Special Inspector 
General. Again, they are providing us useful help in doing 
this.
    And I will go back to, you know, back in January, earlier 
last year, one of the reasons, as General Bash alluded to, that 
we deployed an active Army expeditionary support command to 
CSTC-A--and we have one in Afghanistan supporting our own 
forces in order to train Afghans how to do this and to do this 
in conjunction with them--was because we needed the pros from 
Dover in order to get in there and work this process.
    And so it is an evolving process as we go forward in doing 
this. So we do believe we have the right trend analysis, but we 
will be happy to have our folks work that with the Inspector 
General.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. I now recognize the gentleman from 
Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman.
    You know, I understand about trend analysis from one year 
to the next. But in order to have a good feel for that, you 
have to have a good reference point. And the reference point 
would be consumption.
    Knowing how everything else goes in Afghanistan, you know, 
just hearing what I have just heard and in the previous hearing 
as well, I don't get a lot of confidence that we know what the 
hell we are doing.
    Mr. Lynch. If we are just using a NATO model and we don't 
know what--first, we don't know how many vehicles we have, we 
don't know how much fuel they are using. I do know how things 
go in Afghanistan, and I am not encouraged by that. And so we 
are just adding $200 million to what we used last year. And we 
don't know if we were being robbed last year, but I suspect the 
odds are we were. This is crazy. This is crazy.
    So, Mr. Estevez, you said in your opening statement that 
you have all the records; they have been properly kept. And the 
man to your right, the Special Inspector General, says he has 
no records. And you are both under oath, so what am I supposed 
to believe here?
    I mean, from what I--and all of our members have been over 
to Afghanistan a bunch of times. We know how things are going 
over there. I mean, how do I get that? All the records are 
there; they have been kept in order.
    And, by the way, we have been tracking this thing since 
2006. Everybody is fast-forwarding to 2011, 2010. What happened 
back in 2006? Have we been doing this since 2006? Have we been 
counting vehicles, and have we been tracking consumption? Have 
we been doing that?
    General? Mr. Estevez?
    General Bash. Well, sir, to address your most previous one, 
as you well know, the surge and the buildup in Afghanistan 
didn't occur until the last couple years, so the challenges 
prior to that----
    Mr. Lynch. But, but, but, we know what the surge was, so if 
we had a reference point before that, then you account for the 
surge, so you have a known point.
    So I don't want to fast-forward and make believe we arrived 
in Afghanistan in 2010. I don't want to do that. We have been 
there for a long, long time, and so what were we doing then? We 
have been there 10, 11 years. What were we doing since the 
beginning?
    Have we been just pulling the number out of a hat? Because 
that is the way it seems, that we are just taking an arbitrary 
number, and God knows we have to justify next year's budget, so 
increase it by a substantial amount. You know, it is just 
unacceptable, number one. But it is not going to continue. We 
have to get to the bottom of this.
    So let me go back. You say all the records are in order. We 
have everything. They have been kept in, you know, due 
diligence. So how do we figure out how many vehicles we have 
and how much those vehicles consume?
    Mr. Estevez?
    Mr. Estevez. Let me address a couple of things there.
    First, as General Bash was alluding to, 2006, there was not 
a drive to a 352,000-man force, Afghan force. That didn't 
start, the concerted effort, until the last 3 years or so. So 
there was a change in focus and mission in the midst of that 
and push of equipment in doing so.
    When we say all the records are in order, I said we have 
the records, we are pulling the records. Going back to 2006, we 
have evidence that that is the case, that we have them on 
electronic----
    Mr. Lynch. Well, how come Mr. Sopko doesn't have them then? 
How come he sits there under oath and tells me he has nothing 
and you say, we have everything and it is all in order? How do 
we get that?
    Mr. Estevez. We are providing those to his auditors. 
Hopefully at the end of this, and it is the Department's belief 
at this point, that he will have the records that he needs----
    Mr. Lynch. When is he going to get the records? Because you 
are really----
    Mr. Estevez. Our folks in CSTC-A, sir, are working with his 
auditors as we speak and providing him those records. And----
    Mr. Lynch. Mr. Sopko, how are you doing on the records? Are 
you getting the records?
    Mr. Sopko. They have provided--as for the records in the 
2011 and 2012 framework, time frame, they have given us a CD 
and they said the records are there. We are reviewing to see if 
they are there.
    Mr. Lynch. That is for 1 year, though, right?
    Mr. Sopko. That is for 1 year. Remember, that was the year 
where they said they had all of the records, and when we did 
the survey and we pulled, they didn't have 50 percent of the 
records.
    Now, that doesn't mean the records are complete. You recall 
from last week's testimony, when we pulled it, we could only 
find four complete packages which had all of the appropriate 
forms you would want and were all signed.
    As for the prior records that were shredded--and there is 
no doubt that they were shredded. I mean, two Air Force 
captains have admitted to my investigators they shredded the 
records. Now, I am not saying they did it for evil purposes, 
but they were shredded. They claim they made electronic copies. 
We haven't found those, and we haven't had a chance to look at 
those electronic versions. But the records were shredded.
    Mr. Lynch. Now, Mr. Estevez, you know, you are saying there 
was no shredding going on. We got--you know, this is a good 
hearing, this is pretty good. Okay, we got one guy who says we 
have two Air Force folks that have testified that they shredded 
the documents. And you tell me none of the documents were 
shredded and they were all properly maintained.
    Mr. Estevez. If I could----
    Mr. Lynch. It is like a parallel universe here.
    Mr. Estevez. --I will concede that if the Special 
Investigator has people who say they shredded records, records 
were probably shredded. That does not mean that records were 
destroyed. Electronic copy of record is a valid copy of the 
record.
    Mr. Lynch. Well, hard copy was destroyed.
    Mr. Estevez. That is what I am hearing, sir.
    General Bash. Sir, I would also say that CSTC-A was focused 
on the initial request of records, which, as the Special 
Investigator said, 50 percent was required to be provided right 
away. Over the past 4 or 5 months, they have provided now 97 
percent of those records.
    Now----
    Mr. Lynch. That is what you say, right? You are saying 97 
percent?
    Is that what you are getting, Mr. Sopko?
    Mr. Sopko. I beg to disagree with the General.
    Our initial request--and I am happy to go through the 
timeline. We opened the audit on February 13, 2012. February 
21st, we held our first conference, entrance conference with 
CSTC, and we explained to them what was the scope of the audit. 
On April 3rd, we----
    Mr. Lynch. And what did you describe as the scope of your 
audit? Refresh my recollection.
    Mr. Sopko. Well, it was multiple--4 years of records.
    Mr. Lynch. Okay, good.
    Mr. Sopko. On April 3rd, we made the initial request for 
fuel order documents to CSTC-A. At that meeting, the CSTC-A 
fuel-ordering officer informed us that he did not have 
supporting documentation for any of the earlier fuel orders, 
period, no supporting documentation, because they were 
shredded.
    Mr. Lynch. Okay, let's stop right there.
    All right, Mr. Estevez and Lieutenant General Bash, what do 
you say to that about the previous years? We are not talking 
about the 1 year; we are talking about the other 3 years of the 
4-year request.
    Mr. Estevez. I don't doubt that the officer in question 
said that he had heard----
    Mr. Lynch. Do you have those records?
    Mr. Estevez. We believe we have given the records that the 
Special Inspector General is looking for on the disk. We also 
have records----
    Mr. Lynch. He is asking for 4 years. Are you giving him 4 
years? Earlier, you said the disk was 1 year.
    Mr. Estevez. Sir, we are giving him the records that his 
auditors requested. They asked for records by number, you know, 
I guess by each--and we are giving him the records that he 
asked for.
    We have records stored going back in time. And I can't say, 
you know, what is in these boxes. But we have moved all the 
financial records, as time evolved in Afghanistan, back to Shaw 
Air Force Base----
    Mr. Lynch. All right. From this point forward, I just want 
to make sure everybody understands: When we are looking for 
records, we are looking for 4 years' worth of records. We want 
4 years, not 1 year. So when we say we had all the records, 97 
percent of the records, I am hearing you have 97 percent of the 
4 years that we are looking for in the audit. That is what I am 
hearing.
    Mr. Estevez. We have 97 percent of the records, specific 
records, that the Special Inspector General has asked for. If 
they were looking for other specific records, we will, inside 
the Department of Defense, go and find those records for him.
    Mr. Lynch. Okay.
    I am sure I am exceeding my time.
    Mr. Chaffetz. You are not the first, so----
    Mr. Lynch. Okay. Yeah.
    Mr. Sopko. Mr. Chairman, can I just add to that?
    Mr. Chaffetz. Please.
    Mr. Sopko. Because I don't want to add to the confusion, 
but I think what the confusion is--and then on April 18th--
remember, April 3rd, we were told the 4 years of records are 
destroyed. April 18th, that same fuel-ordering officer says, 
``You can't get the earlier records, but we do have records for 
1 year.'' That is March--so that is what we are talking about, 
the 1 year. So----
    Mr. Lynch. So, Mr. Estevez----
    Mr. Sopko. --97 percent is the 1 year. We immediately asked 
for----
    Mr. Lynch. Let's stop right there.
    So, Mr. Estevez, after you told him you can't get the 
previous years, you can get the 1 year, are we skipping over 
that? Is that what you are telling me? In this 97 percent 
response, you are skipping over the part where he asks for 4 
years, and you are hearing, well, we don't have the other 3 
years, but we will give you 1 year? Is that what is causing the 
confusion here? Because we want 4 years.
    Mr. Estevez. I hope not. But I will say that neither 
General Bash nor I are privy to the discussions between his 
auditor and the levels in CSTC-A that they were dealing with.
    Mr. Lynch. Okay. I am talking about the original response 
that asked for 4 years of records. And your guys are probably 
saying, ``Well, we got them to back off on the first 3 they 
wanted. We told them we didn't have them. We told them we have 
1 year.'' And so now you are dealing with a much narrower 
request. But that is not the entire request.
    Mr. Estevez. Sir, if the Special Inspector General asked 
for records, we will go find those records for him.
    Mr. Lynch. Okay. And we are talking 4 years. All right.
    I will yield back.
    Mr. Chaffetz. I thank the gentleman.
    I will now recognize myself.
    One of the allegations, if you will call it that, or one of 
the concerns--probably is a better word--is that you had not 
been working with the Afghan ministry. Mr. Sopko mentioned that 
in his opening statement. How would you react to that?
    General Bash. Well, having been an adviser myself, Mr. 
Chairman, there is a team that works with the ministry every 
day to help them build that institutional capacity.
    I wasn't assigned to Afghanistan in that regard. However, 
there is no doubt in my mind, once they started to--they 
decided to build logistics capacity, which--and they have a 
whole plan of eight different ways of building that enabler--
they start to work with the ministers to help them understand 
how to do logistics.
    Mr. Chaffetz. Mr. Sopko, did you want to add anything to 
that concern about talking to the ministers?
    Mr. Sopko. Well, all I can say is that, in the latest--they 
have set up a meeting, which we applaud, but it was only set up 
recently, I believe in the August--well, actually, it was set 
up before your hearing, but I think it met after the last 
hearing, so it would be last week or earlier this week, at 
which time the Afghan ministry, I think, was the first time it 
looks like they were consulted. And they said, we are not 
prepared to start January 1st.
    And that was a briefing that CSTC-A gave us and some 
documents they gave us and PowerPoints just this week about 
this meeting. So we are just saying it looks like--now, again, 
that wasn't the scope of our audit----
    Mr. Chaffetz. Well, let me give the General--we are going 
to have to pick up the pace here.
    General, how do you--I mean, you said you are meeting 
daily. The Inspector General is saying you met for the first 
time since we had our last hearing, which was a week ago.
    General Bash. I think it is a matter of level. I mean, 
there are engagements consistently----
    Mr. Chaffetz. Are they ready to handle this in January?
    General Bash. Sir, sitting here in Washington, D.C., and 
talking to the commander out there, their plan is to have a 
phased approach based on conditions. So if they are not ready--
--
    Mr. Chaffetz. Based on your assessment of the conditions 
today--and I think it has been benched back to March of 2013.
    General Bash. In fact, that is what we have heard today, 
and that tells me that they are not ready on 1 January. And so 
now they are going to move that to March to make a new 
assessment.
    Mr. Chaffetz. All right, let me keep going.
    You talked about an ongoing effort to do a quarterly review 
as the ministry starts to take over again. I seriously question 
we should even do that. But at what point, what is the 
threshold, what is the level of acceptable--what is the 
threshold by which we say, this is unacceptable, this is 
acceptable? Where do you say, well, they got 80 percent of it 
right, so we will just keep going? Where is that threshold?
    General Bash. Sir, I would think that, to a certain extent, 
there is going to be some commander judgment in balancing the 
needs of the mission to grow the Afghan----
    Mr. Chaffetz. I guess as a follow-up we would love to know 
what sort of metrics are going to be in place so we can look at 
it objectively, we are not doing this subjective analysis. I 
think that is what the Inspector is looking for, and I think 
that is what Congress is looking for, as well.
    If somebody did shred the documents, what should happen to 
them?
    Mr. Estevez. Obviously, we should investigate the cause of 
the shredding, why they were shredded, and we should hold 
people accountable.
    Mr. Chaffetz. I guess I am questioning, what would be 
``holding people accountable''?
    Mr. Estevez. I mean, that will have to--it will depend on 
the circumstances.
    Mr. Chaffetz. If you could perhaps follow up on this. Is 
there any justification--I mean, one of the things that popped 
up in this interim report was this $20 million for firewood. Is 
there any justification for that?
    General Bash. Well, in fact, we did follow up with that on 
the commanders. And as you probably are aware, firewood is the 
primary source of energy in rural Afghanistan. In the Afghan 
Army, every DFAC, every dining facility has a fire that helps 
them cook. That is just how they operate there. And so they use 
the estimates of fuel--you know, wood is as important as gas.
    And so that is the nature of the requirement. We don't 
necessarily question the requirement. But, again, it is the 
situation of, you know, $20 million at--firewood in Afghanistan 
right now because of deforestation, there is only, like, 1 or 2 
percent of the country that has it. And so the price of 
firewood has no doubt gone up because of demand.
    But they have told us that they have, you know, procedures 
in place similar to other commodities to track the requirements 
for firewood and make assessments about those needs.
    Mr. Chaffetz. I guess that is the same concern, because 
when the Inspector General's office went in there and asked for 
the assessment, how did you come up with this number--I will 
let Mr. Sopko fill in the blank on what they said.
    Mr. Sopko. They basically told our auditors, Mr. Chairman, 
``We don't know. We don't have the records. We just pay it.''
    Mr. Chaffetz. So, General, you are sitting in my seat; what 
do you do with that? You call a general up here and ask him to 
help answer it, and what is the answer to that?
    General Bash. I can appreciate that. And we read that 
testimony and yesterday asked the commander about it, and he 
said that they have--the commander in charge now, they said 
they have records that give him confidence that the----
    Mr. Chaffetz. When we will have those records?
    General Bash. Well, they are working with the Special 
Investigator----
    Mr. Chaffetz. No, I want a date from you, General. When is 
the Inspector General going to have those records? What is 
reasonable?
    If they have them, right, and they know they have them, 
just send them over. I mean, FedEx probably doesn't work in 
Afghanistan like it does in Provo, Utah. But, nevertheless, 
when is he going to get those records? You are being told they 
have them, so it shouldn't be that hard.
    Mr. Estevez. Well, again, you know, Mr. Sopko has said we 
have given him a disk, he is going through that disk----
    Mr. Chaffetz. I want the firewood records. Where are the 
firewood records?
    General Bash. All I can say, Mr. Chairman, is that we will 
take that for action and----
    Mr. Chaffetz. Sir, with all due respect, I am looking for a 
date. Give me a date. What is a reasonable date?
    Mr. Estevez. Really, we cannot answer that question sitting 
here at a table in Washington, Chairman Chaffetz. There are a 
lot of other things going on in Afghanistan----
    Mr. Chaffetz. Will you commit to giving me a date within a 
week?
    Mr. Estevez. I will commit to giving you a date, sir.
    Mr. Chaffetz. Within a week? Is that fair?
    Mr. Estevez. Within a week.
    Mr. Chaffetz. Very good. Thank you.
    I need to talk quickly about debarment. One of the 
allegations is that the debarment process is not working. The 
Inspector General, in a letter to myself and Ranking Member 
Tierney, identifies I believe it is 43 contractors that have 
not necessarily been put on the debarment, and that this 
process has a backlog.
    Can you give us your perspective on that?
    Mr. Estevez. I can. SIGAR has referred 122 individuals and 
entities to the Army with recommendations. Fifty-two we 
received prior to August. Forty-two of those folks are already 
debarred. Seventy referrals were received in the last 45 days, 
and 59 of those referrals were given after September 4th, or on 
September 4th.
    There is a due process way that you do a debarment that is 
written into law and into the FAR, the Federal Acquisition 
Regulation. So we have to follow that process to debar, and it 
takes a preponderance of evidence. So there is going to be 
back-and-forth on evidence. If everything is in order, the Army 
can--in this case, the Army happens to be the suspension 
debarment authority--can debar within 30 days.
    Outside of that process, there is the process that this 
Congress authorized last year in Section 841, which is not 
contracting with the enemy. And that is not a suspension 
debarment process, but we can terminate contracts of folks 
identified under that. And, again, that is done within the 
CENTCOM chain of command.
    Mr. Chaffetz. What sort of backlog do you have currently?
    Mr. Estevez. I can't speak to the total Army level of 
backlog, but as I just said, they are going through the number 
that the Special Investigator just sent over. The Army has--
total debarment this year in Afghanistan is 100. That is double 
what was done in the last 4 years.
    Mr. Chaffetz. And what is the time frame? If the Special 
Inspector General gives a name, what should happen and what is 
happening in terms of when does it get to the finish line where 
a determination is made?
    Mr. Estevez. Well, again, it depends on--first, suspension 
and debarment has to be in the interests of the Federal 
Government, and it has to follow the Federal Acquisition 
Regulation in order to do that. If all the evidence lines up 
properly that they need in order to do this, following due 
process, they can do it within a 30-day time frame.
    Mr. Chaffetz. And, Mr. Sopko, can you give us your 
perspective on what is happening and not happening in this 
regard?
    Mr. Sopko. Well, Mr. Chairman, I think the question here--
and we don't disagree with the Army that they have set up a 
very good process. But we think that process was set up for the 
normal, run-of-the-mill cases, for cases dealing with U.S. 
companies or companies here in the United States.
    What you have here is you have a war. We are in a war zone. 
We have to move quickly. This has to be a priority.
    When the Department of Commerce puts an entity, an 
individual, a company on a list that is called the entities 
list, and these are entities and individuals and companies that 
are tied to our enemies, and we have to stand in line with the 
other thousand cases and there is no priority given to us and 
no priority given to the fact that these are entities which 
could actually be getting access to our military bases as we 
speak because they have only four--only four--debarment 
officials in the entire United States Army and only one 
assigned to this region, and it will usually take a year. That 
is what the backlog is.
    All we are saying is you have a great process, but it was a 
process set up for a non-war. We are in a war. Let's take it 
seriously. Let's give suspension and debarment authority to the 
commanders in the field; let's give it to the SIGAR. And let's 
move on this.
    I mean, I find it very troubling that one branch of the 
government can list an entity as being identified to the 
Haqqani organization and the al Qaeda, and now we are waiting 
for a year to debar and suspend them. And particularly in 
Afghanistan, where we are dealing with subcontractors. That is 
what the threat is. You know, the system they have in place is 
a system that is excellent when we are not fighting a war. We 
are in a war now.
    Mr. Chaffetz. I will yield my time and recognize the 
gentleman from Massachusetts.
    Mr. Tierney. I only want to follow up on that line of 
questioning.
    Secretary, the SIGAR has made a recommendation for a draft 
regulation to the Office of Management and Budget, but the 
understanding is that the Department of Defense issued an 
objection to that. Can you shed some light on that?
    Mr. Estevez. Unfortunately, sir, I can't. I will have to 
look into that.
    We believe that the process is working.
    The entities list, by the way, with the Department of 
Commerce is not a list for suspension/debarment, has nothing to 
do with it. It is an export control regiment. So that is not 
the process.
    However, I will point out that this Congress has given us a 
number of authorities that we can use, including the 
requirement to do, you know, when the contract clause is 
written--and, of course, that was just given--to manage 
subcontractors and Section 841, which does allow us to 
terminate contracts related to contracting with the enemy.
    Mr. Tierney. I am familiar with that one; I wrote it.
    Mr. Estevez. I know you are, sir.
    Mr. Tierney. Having written that, I am very familiar with 
it.
    But the bottom line is how long does it take to debar 
somebody when you are told or the Department of Defense is told 
that this person is working with the Taliban or with the 
Haqqani group or with al Qaeda? I hope you are going to tell me 
a matter of days and not a matter of months or years.
    Mr. Estevez. With proper evidence and--two things: again, 
841, which you are familiar with, you do not have to suspend/
debar. You can use 841 under the authority of the CENTCOM 
commander to do that. So that can be done with evidence, and 
that can be done with evidence that can't be used in a 
suspension/debarment activity, classified evidence.
    A suspension/debarment activity separate and distinct from 
what would be done under 841 can be done within 30 days, given 
the proper evidence.
    Mr. Tierney. Thank you.
    Mr. Chaffetz. Just a little bit more questions.
    Mr. Sopko, did you want to add to anything that was just 
said there? I just want to finish that up.
    Mr. Sopko. Well, I would--you know, with all due deference 
to the Assistant Secretary, as a lawyer I would think, first of 
all, being listed on the entities list would be grounds for 
suspension/debarment. And 841, being listed on 841 is not being 
used currently to suspend and debar people.
    And the other thing is, once you are on the suspension/
debarment list, then international organizations take notice of 
this also. And that is the other problem. We have international 
organizations that may be contracting; of course, we are 
funding those international organizations.
    So the suspension and debarment--and I am happy to provide 
additional legal justifications we did on this matter.
    Mr. Chaffetz. Thank you.
    I would also mention that myself and the ranking member, 
Mr. Tierney, and I are working on a piece of legislation we may 
be dropping soon to talk about discussing the possibility of 
pushing this back, the POL, and the money going directly to the 
Afghan Government, until we can sort this out.
    One of the deep concerns here is, we can't seem to manage 
it, we can't even seem to get this right, and we have been 
operating in-theater for 10 years and we are the United States 
of America. And we expect that suddenly the Afghan Government 
is going to handle hundreds of millions of dollars and do so in 
a proficient manner and do so with great oversight and 
accountability? It just seems totally unreasonable.
    There was way a reason we invited Mr. Sampler here. I would 
like to talk a little bit about USAID. I am going to transition 
here for a moment as we start to try to wrap this up.
    But, Mr. Sampler, we appreciate your work and what USAID is 
trying to do. I have been very supportive of Mr. Shah in his 
responsibility as the Administrator there at USAID. I think he 
is passionate and cares.
    But one of the deep concerns that I have is that USAID is 
moving in a direction that is, in essence, less accountability, 
less oversight, and more direct assistance. And I would point 
to this USAID Forward program that was put out, which talks 
about, quote, ``to achieve capacity-building objectives in 
using host country systems where it makes sense,'' end quote. 
In some regards, that sounds good, but we are typically looking 
at third-world countries, developing countries, that don't have 
the assets or the sophistication to necessarily do what we 
would like them to do.
    My general concern is that, rather than teaching them how 
to fish, we are just continuing to hand them fish; in fact, we 
are trying to expedite that by just handing them more fish at 
an accelerated rate, more money, directly there, not knowing if 
it actually gets to the finish line, not knowing if it actually 
achieves what we are trying to achieve.
    We have trouble getting information from USAID to justify 
these expenditures as it is, and it seems to me that this would 
make it even worse. That is exacerbated by the fact that we are 
at war, that we have tens of thousands of U.S. troops on the 
ground in Afghanistan trying to do some very difficult work.
    Do you have a sense of--and so, that is the general 
concern. Can you give me a sense of how much foreign aid we 
have given to Afghanistan and how much of that would be 
categorized in this, sort of, direct assistance bucket, if you 
will?
    Mr. Sampler. Mr. Chairman, in a previous testimony, I said 
that it was $15 billion was the assistance that had been 
delivered to Afghanistan. I cannot at the moment recollect how 
much of that is direct or what we call on-budget assistance, 
but I will get you that answer.
    The number of $15 billion is huge. And as a taxpayer 
myself, that raises concerns. But I would characterize the way 
that USAID does this as being a layered defense, in the sense 
that we protect U.S. taxpayer dollars through a number of 
different mechanisms.
    And if I could, I will give you two or three of the 
examples of how on-budget----
    Mr. Chaffetz. One or two would be great. We have to move 
swiftly. Sorry.
    Mr. Sampler. We projectize the money that we give to the 
Government of Afghanistan. That is, we don't give them money 
and ask what they are going to do with it. We work with the 
ministry to say, the ministry wants to do X. And so it is 
projectized.
    And at that point, we also provide technical assistance to 
help break out milestones for that project. If you are going to 
do X, how do we get halfway and halfway again and halfway 
again. And on those milestones, we identify particular 
benchmarks that we will pay for on a cost-reimbursable basis.
    So throughout the lifecycle of the project, we control the 
money. The deal is----
    Mr. Chaffetz. But, you know, the concern is, going back to 
last year, the GAO determined that USAID had failed to conduct 
appropriate risk assessments prior to granting a lot of the 
bilateral aid. Are you telling me that those problems the GAO 
identified last year have gone away, they have been solved?
    Mr. Sampler. Actually, I will if we are talking about the 
same problems. I pulled the report after I saw the testimony, 
and I believe the report referred to determinations that we are 
required to make before any disbursement. And, in this case, it 
was a series of disbursements to the World Bank Afghan 
Reconstruction Trust Fund. And in that case, there were 
determinations that were not made. We made some, and then there 
was a period of time when they were not made. It was brought to 
our attention through the report, which is, again, one of the 
reasons we find these reports so valuable.
    And in the response to the report, the mission director and 
Sean Carroll, who was our Chief of Staff at the time, noted 
that we had been lax in doing those determinations and 
confirmed that they would be done henceforth.
    Mr. Chaffetz. I guess part of my concern is that, under the 
new Forward initiative for USAID, USAID plans to funnel roughly 
30 percent of U.S. foreign assistance directly to foreign 
governments and NGOs in the hopes that this money can, you 
know, quote/unquote, ``build capacity.'' Yet I don't see 
examples of where--and maybe, you know, as a follow-up to 
this--where we can point to something and say, ``This is how we 
are becoming more accountable. This is how we are doing more 
oversight.''
    That is the help that this committee would like. It is one 
of the concerns with this so-called Forward initiative, and it 
is an even deeper concern in Afghanistan. Because I think one 
of the untold sad stories that we are going to look back here 
upon in Afghanistan years, decades from now is the waste, the 
fraud, the abuse, that we were exacerbating the problem, we 
were funneling money to the enemy, we were funding the enemy. I 
mean, the host-nation trucking work that my colleague here, Mr. 
Tierney, did is crystal-clear in how problematic it was that we 
were funding the enemy.
    And I just can't--I just fundamentally have trouble sending 
money directly to these governments without the accountability 
metrics in place.
    Mr. Sampler. Congressman, you articulated two dimensions of 
this problem.
    One is the 30 percent goal across the world. And that is 
actually an aspirational goal. And I will note that the 30 
percent is aggregate at the agency level. So if in a particular 
country it doesn't make sense to even attempt to get to 30 
percent, we won't. There are no disincentives, there are no 
punishments if mission directors don't reach this goal. It is 
an aspirational goal.
    And it is actually in the service of good development. 
Development is one of the few industries, perhaps other than 
dentists, where we try to put ourselves out of business. And 
for us to do development----
    Mr. Chaffetz. Not my dentist, I will tell you that. We are 
trying to put his kids through college, is what we are trying 
to do in our family.
    Mr. Sampler. Well, we work to build the host national 
capacity. And to not do that would not be to execute our duties 
as development professionals.
    But we do recognize that, as stewards of taxpayer dollars, 
we have to do it responsibly. And there are examples in 
Afghanistan where we have done pre-award assessments and we 
have said, we will not allow you to do what you have described 
but will allow you to do something lesser.
    The Department of Education is an example. The Department 
of Education wanted us to fund textbooks and training for 
teachers. Because textbooks can be counted, we actually 
evaluated the Department of Education and said, you meet a 
rational standard for being able to on your own execute this 
budget and buy textbooks. We will give you money, you will buy 
textbooks, we will count the textbooks, and we will consider it 
done.
    We did not believe that the Department of Education reached 
a level of ability to take the same kind of money and execute 
teacher training, because it is harder to count the quality and 
the number of teachers trained.
    So we are still providing technical assistance to the 
Ministry of Education so that in months or years ahead we will 
be able then to provide that ministry with a higher level of 
control and a higher level of autonomy to provide teacher 
training.
    Mr. Chaffetz. I would appreciate it--and, again, I am not 
expecting you to respond right here at the moment to the 
details of this. But myself and Chairman Issa, on April 26th of 
this year, sent Administrator Shah a request asking for USAID's 
internal country assessments--this is also known as the Public 
Financial Management Risk Assessment Framework, the PFMRAF 
documents--related to this new direct assistance program. But 
as of yet, USAID and the State Department have refused to 
provide this list in an unredacted form.
    I guess what I am asking you to respond to is, will you 
give us and provide the Congress that information?
    Mr. Sampler. Congressman, I do know that that process is 
under way and your staff have been talking to State----
    Mr. Chaffetz. Well, the problem is we asked for it in 
April, and here we are in September and the process is still 
under way. I just don't understand why this isn't a 
photocopying exercise.
    Mr. Sampler. Congressman, I am sorry, I am not the person 
who deals with what documents--I am not familiar with the 
details of that process. I do know that----
    Mr. Chaffetz. But you were told to say today that we are 
working on this? Is that the idea?
    Mr. Sampler. Congressman, I wasn't told to say it. I just 
know that we are working on it.
    Mr. Chaffetz. Okay. This is one of the core questions that 
we have, and it gives some of the oversight that--or some of 
the information that we need. Would you please talk to 
Administrator Shah and look at this April 26th letter? Because 
we still have not had the proper and full response to that 
letter.
    Mr. Sampler. I will take that back today.
    Mr. Chaffetz. Thank you. I appreciate that.
    If the ranking member has no additional questions, I wanted 
to provide you each a very brief--because we have gone 
exceptionally long--opportunity to give a closing comment, and 
then we will conclude this hearing.
    We will start with you, Mr. Sampler, and then we will just 
kind of work down the list.
    Mr. Sampler. Thank you, and I will be very brief.
    I think at this committee it is an opportunity to reinforce 
the importance that oversight and accountability does play in 
what USAID does.
    A large part of our work that is seen is seen to be 
humanitarian in nature. It is providing education. It is 
providing opportunities for women. It is providing health and 
benefits to the people of Afghanistan. But a tremendous amount 
of our work is done beneath the surface, so to speak, which 
does involve the kinds of oversight and the kinds of 
accountability that I think your committee and certainly SIGAR, 
GAO, and our own inspectors general expect of us.
    So it was not gratuitous when I said in my opening remarks 
that we value and appreciate the value of oversight and 
accountability. And as we move in the direction of on-budget 
support, that will become even more important. So I welcome the 
opportunity to speak to you today.
    Mr. Chaffetz. Thank you.
    General Bash?
    General Bash. Mr. Chairman, let me just say that we take 
these issues very seriously. As the chairman's representative, 
we do not want to let the taxpayer money go to waste. So we 
very much appreciate working with the Special Investigator. We 
will continue to do that, absolutely, as we go forward for 
their requests to be responsive.
    The mission, you know, in Afghanistan is the primary issue, 
and to build the institutional capacity is really the core 
thing. As we leave, can they do it on their own? And that is 
the art of the commander's judgment out there. You know, to use 
an analogy, how do you take the training wheels off to let them 
have a chance?
    And from a logistics perspective, we have only been doing 
that for about a year or so. As we move forward, those 
challenges will only increase. So it is a journey. But with 
regard to the issues we have discussed today, we are focused, 
and we will make sure that we make progress.
    Mr. Chaffetz. Thank you, General.
    Mr. Estevez?
    Mr. Estevez. Likewise to what General Bash said.
    First, our folks out there are doing some very hard work, 
and we need to recognize that in trying to build this Afghan 
capacity. It is the key to our success in Afghanistan.
    We appreciate the dialogue with this committee on that 
matter today. We appreciate the work of the Special Inspector 
General. Because it is hard work and not everything is gotten 
right the first time, and we need help. We need help in helping 
them. So all help is appreciated in doing this.
    We are committed to doing that in a transparent way. I 
think that is important for our forces, and it is important to 
the American people to know how we are doing it. So we are 
going to continue pressing that forward. And, again, we 
appreciate the work.
    Mr. Chaffetz. Thank you.
    Mr. Sopko?
    Mr. Sopko. I would just like to conclude by saying that the 
importance of the records issue that we have spent so much time 
talking about is not so much whether the SIGAR got the records; 
the question is whether the records were used and have been 
used and will be used to hold the Afghan Government and this 
program accountable so we don't have fraud, waste, and abuse.
    Thank you.
    Mr. Chaffetz. Thank you.
    Gentlemen, I appreciate your commitment and your work to 
this country, the patriotism and the dedication you bring, but 
also those men and women, particularly who are serving 
overseas, who are doing the hard, difficult work away from 
their families and doing what their country is asking them to 
do. So please, if nothing else, share that message with them.
    I appreciate you spending time before the committee. This 
is part of the process. It is how our Constitution is set up. 
And I do appreciate your participation here today.
    The committee stands adjourned.
    [Whereupon, at 4:10 p.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] 76263.001
    
    [GRAPHIC] [TIFF OMITTED] 76263.002
    
    [GRAPHIC] [TIFF OMITTED] 76263.003
    
    [GRAPHIC] [TIFF OMITTED] 76263.004
    
    [GRAPHIC] [TIFF OMITTED] 76263.005
    
    [GRAPHIC] [TIFF OMITTED] 76263.006
    
    [GRAPHIC] [TIFF OMITTED] 76263.007
    
    [GRAPHIC] [TIFF OMITTED] 76263.008
    
    [GRAPHIC] [TIFF OMITTED] 76263.009
    
    [GRAPHIC] [TIFF OMITTED] 76263.010
    
    [GRAPHIC] [TIFF OMITTED] 76263.011
    
    [GRAPHIC] [TIFF OMITTED] 76263.012
    
    [GRAPHIC] [TIFF OMITTED] 76263.013
    
    [GRAPHIC] [TIFF OMITTED] 76263.014
    
    [GRAPHIC] [TIFF OMITTED] 76263.015
    
    [GRAPHIC] [TIFF OMITTED] 76263.016
    
    [GRAPHIC] [TIFF OMITTED] 76263.017
    
    [GRAPHIC] [TIFF OMITTED] 76263.018
    
    [GRAPHIC] [TIFF OMITTED] 76263.019
    
    [GRAPHIC] [TIFF OMITTED] 76263.020
    
    [GRAPHIC] [TIFF OMITTED] 76263.021
    
    [GRAPHIC] [TIFF OMITTED] 76263.022
    
    [GRAPHIC] [TIFF OMITTED] 76263.023
    
    [GRAPHIC] [TIFF OMITTED] 76263.024
    
    [GRAPHIC] [TIFF OMITTED] 76263.025
    
    [GRAPHIC] [TIFF OMITTED] 76263.026
    
    [GRAPHIC] [TIFF OMITTED] 76263.027
    
    [GRAPHIC] [TIFF OMITTED] 76263.028
    
    [GRAPHIC] [TIFF OMITTED] 76263.029
    
    [GRAPHIC] [TIFF OMITTED] 76263.030
    
    [GRAPHIC] [TIFF OMITTED] 76263.031
    
    [GRAPHIC] [TIFF OMITTED] 76263.032
    
    [GRAPHIC] [TIFF OMITTED] 76263.033
    
    [GRAPHIC] [TIFF OMITTED] 76263.034
    
    [GRAPHIC] [TIFF OMITTED] 76263.035
    
    [GRAPHIC] [TIFF OMITTED] 76263.036
    
    [GRAPHIC] [TIFF OMITTED] 76263.037
    
    [GRAPHIC] [TIFF OMITTED] 76263.038
    
                                 <all>

</pre></body></html>
